INSTITUTE FOR JUSTICE

July 9, 2021

Via Electronic Filing

Hon. Scott S. Harris, Clerk of Court
Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

Re: David Carson, et al. v. A. Pender Makin,
Docket No. 20-1088

Dear Mr. Harris:

As counsel for Petitioners David Carson, et al. in the above-captioned
case, I am writing to grant blanket consent to the filing of amicus curiae
briefs in this case, provided the briefs are filed within the time allowed by the
rules of this Court. This consent applies without regard to the positions
taken in the briefs or the party supported.

Respectfully,

S54 oo

( —_

No
Michael Bindas
Counsel for Petitioners

cc: Sarah Forster, Counsel for Respondents
(via email: sarah.forster@maine.gov)

ARLINGTON AUSTIN CHICAGO MIAMI MINNEAPOLIS SEATTLE TEMPE

 

600 University Street, Suite Seattle, WA 98101 (206) 957-1300 (206) 957-1301 Fax
general@ij.org — www.ij.org/washington
